No. 21-

In the Supreme Court of the United States
UJ-EIGHTY CORPORATION, PETITIONER,
v.
CITY OF BLOOMINGTON BOARD OF ZONING APPEALS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,775
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury the foregoing is true and correct. Executed on July 23,
2021.

/s Stanton Jones
R. Stanton Jones
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
stanton.jones@arnoldporter.com
July 23, 2021

